                                                                  Issue Date
                                                                           August 17, 2007
                                                                  Audit Report Number
                                                                               2007-KC-1007




TO:         Steven E. Meiss, Director of Public Housing Hub, 5APH

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT: St. Clair County Housing Authority, Belleville, Illinois, Did Not Properly
            Calculate Housing Assistance Payments


                                     HIGHLIGHTS

 What We Audited and Why

              We audited the St. Clair County Housing Authority’s (Authority) Section 8
              Housing Choice Voucher program. We selected the Authority based on its
              ranking in our risk analysis of public housing authorities. Our audit objective was
              to determine whether the Authority properly calculated housing assistance
              payments.


 What We Found


              The Authority did not consistently calculate housing assistance payments
              correctly. Of the 89 files statistically selected for review, the Authority
              incorrectly calculated the housing assistance payments of 52 households, resulting
              in overpayments and underpayments totaling more than $29,000 for the period
              July 1, 2004, through December 31, 2006.
What We Recommend
           We recommend that the U.S. Department of Housing and Urban Development
           (HUD) require the Authority to reimburse its program $26,010 from
           administrative fee reserves for the overpayments and reimburse appropriate
           households $3,113 from administrative fee reserves funds for the housing
           assistance underpayments.

           Additionally, we recommend that HUD require the Authority to implement
           adequate procedures and controls to ensure that staff properly calculate and
           administer housing assistance payments, preventing future errors and improper
           payments.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the draft report to the Authority on July 23, 2007, and requested a
           written response. We received its response on August 3, 2007. The Authority
           generally agreed with our findings and agreed to reimburse the program for the
           overpayments and the appropriate households for the underpaid benefits.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                              4

Results of Audit
      Finding: The Authority Did Not Properly Calculate Housing        5
                Assistance Payments

Scope and Methodology                                                  7

Internal Controls                                                      9

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use   10
   B. Auditee Comments and OIG’s Evaluation                            11
   C. Schedule of Housing Assistance Errors                            16




                                            3
                      BACKGROUND AND OBJECTIVES

The St. Clair County Housing Authority (Authority) was organized in 1934 under the laws of the
State of Illinois. Governed by a five-member board of commissioners, its purpose is to provide
adequate housing for low-income individuals.

The Authority operates several federally funded programs, including a Section 8 Housing Choice
Voucher program. The Housing Choice Voucher program provides housing subsidies to property
owners who rent to qualifying program participants. The Authority is responsible for processing
applications and recertifications, performing inspections of units selected by program participants,
calculating the maximum amount of housing assistance allowable, and making housing assistance
payments to owners and tenants. Under the conditions of an annual contributions contract, the U.S.
Department of Housing and Urban Development (HUD) provides funding for both the housing
assistance and the administrative cost of managing the program.

The Authority’s current annual budget for this program is more than $ 7.5 million, which was
allocated based on a formula-driven system administered by HUD. As of December 2006, the
Authority had 1,614 Section 8 housing choice vouchers, with a utilization rate of 100 percent, based
on funding.

Our audit objective was to determine whether the Authority properly calculated housing assistance
payments.




                                                 4
                                 RESULTS OF AUDIT

Finding:      The Authority Did Not Properly Calculate Housing
              Assistance Payments
The Authority incorrectly calculated housing assistance payments for 52 of the 89 household
files reviewed. It had not implemented adequate procedures and controls to ensure the integrity
of its program. As a result, it made housing assistance overpayments and underpayments
totaling more than $29,000. Based on our statistical sample, we estimate that the Authority will
overpay more than $78,000 in housing assistance over the next year.



 The Authority Incorrectly
 Calculated Assistance

               The Authority did not consistently calculate housing assistance payments correctly.
               To determine whether it properly calculated housing assistance payments, we
               reviewed its certifications affecting payments from July 2004 through December
               2006 for 89 statistically selected program households. It did not properly calculate
               housing assistance payments for 52 of the 89 household files reviewed. These 52
               files contained the following errors:

                Type of error                       Number of files Percentage of sample
                  Payment standard selection              4                    4%
                  Utility allowance calculation         17                   19%
                  Adjusted gross income calculation     35                   39%
                  Payment administration                  1                    1%

               Appendix C of this report details the errors and associated improper payments for
               the 52 households.


 The Authority Did Not Have
 Adequate Controls

               The Authority had not implemented adequate policies, procedures, and controls to
               ensure that its caseworkers properly performed essential duties relating to the
               calculation of housing assistance. Its Section 8 administrative plan was the only
               written policy that addressed caseworker duties and the maintenance of tenant
               files. However, the plan lacked sufficient detail to instruct caseworkers on how to
               carry out everyday tasks. For example, it did not describe the process for
               annualizing income and handling discrepancies among supporting documentation.



                                                 5
          In 2006, the Authority underwent a major reorganization, resulting in significant
          staffing changes. Its current supervisory staff began taking steps to improve its
          policies, procedures, and controls. In a December 2006 corrective action report,
          the Authority indicated that staff were in the process of obtaining rent calculation
          training and certification. While the report also stated that “an internal ‘quality
          control’ audit process will be implemented to improve accuracy in the
          determination of adjusted income, income calculations, and utility allowance
          calculations,” it did not establish a timeframe for such action.


The Authority Made Improper
Housing Assistance Payments

          The Authority made improper housing assistance payments for 52 households.
          Specifically, it made approximately $26,000 in housing assistance overpayments
          for 37 households, including rental subsidies paid to owners and utility
          reimbursements paid to tenants. Additionally, it underpaid more than $3,000 in
          rental subsidies for 15 households.

          Based on the sample files reviewed, we estimate that the Authority overpaid
          nearly $200,000 in housing assistance payments during our 30-month audit
          period. As detailed in the Scope and Methodology section of this report, we
          estimate that the Authority can prevent more than $78,000 in improper housing
          assistance payments over the next year if it continues to develop and implement
          adequate procedures and controls to ensure compliance with HUD regulations.



Recommendations

          We recommend that the director of HUD’s Chicago Office of Public Housing
          require the Authority to

          1A.     Reimburse its program $26,010 from administrative fee reserves for the
                  housing assistance overpayments, including $22,301 in rental subsidies
                  paid to owners and $3,709 in utility reimbursement paid to tenants.

          1B.     Reimburse the appropriate households $3,113 from administrative fee
                  reserves for the housing assistance underpayments.

          1C.     Revise its program administrative plan to address how households will be
                  reimbursed when an underpayment of housing assistance occurs.

          1D.     Implement adequate procedures and controls to ensure that staff correctly
                  calculate housing assistance payments, preventing $78,982 in improper
                  payments over the next year.



                                            6
                         SCOPE AND METHODOLOGY

To accomplish our audit objective, we

   •   Reviewed background information and criteria that regulate the Authority and its
       operations.
   •   Reviewed various reports, databases, and documents to determine existing conditions at
       the Authority, including information contained in HUD’s Public and Indian Housing
       Information Center system, Office of Public Housing monitoring reports and responses,
       and an independent public accounting report.
   •   Conducted interviews with both HUD staff tasked with oversight of the Authority’s
       operations and key Authority staff, including management and program employees.
   •   Examined the Authority’s administrative plan, policies, procedures, and payment records.

To perform our review, we relied upon computer-processed data provided by the Authority.
Specifically, we relied upon a spreadsheet that contained data on housing assistance owner
subsidy payments made during our 30-month audit period for 2,334 households. We analyzed
the data and concluded that the data are sufficiently reliable for our purposes of sample selection
and projection.

Using various data analytical software tools, we determined that a sample size of 89 household
files from the universe of 2,334 was sufficient using unrestricted variable sampling methodology.
Our criteria included a 90 percent confidence level, 10 percent estimated error rate, and precision
level of plus or minus 10 percent. Accordingly, we randomly selected 89 of the 2,334 household
files for detailed review. Because some of the sampled household files could not be located, we
made additional random selections as necessary to maintain the integrity of the computed sample
size. This sampling plan allowed for quantification and projection of any over/underpayments of
housing assistance.

To determine whether the Authority properly calculated the housing assistance payments made
during our audit period for the sample households, we analyzed information entered into the
Authority’s certification system as well as supporting documentation such as household member
identification, fair market rent data, income verifications, and rental unit records. We then
calculated the correct housing assistance payment amounts covering each month of our audit
period. During the course of this audit, we made an additional seven random selections due to
the unavailability of hard-copy files.

We found that the Authority incorrectly calculated housing assistance payments for 52 of the 89
household files reviewed. As a result, it made housing assistance overpayments and
underpayments totaling more than $29,000 for the sampled transactions.




                                                 7
To determine our estimate of $78,982 in potential overpayments due to calculation errors over
the next year, we used difference estimation techniques to project the sample results.* This
yielded an estimate of $503,200 in housing assistance overpayments during our 30-month audit
period with upper and lower limits of $808,944 and $197,456, respectively. For reporting
purposes, we annualized the lower limit ($197,456 divided by the audit period of 30 months
times 12 months, or $78,982). This estimate is presented solely to demonstrate the annual
amount of program funds that could be put to better use if the Authority implements our
recommendations. While these benefits would recur indefinitely, we were conservative in our
approach and only included the initial year in our estimate.

During the survey phase of this review, we also reviewed a hotline complaint containing nine
allegations. To conduct our testing of the complaint issues, we reviewed transactions and
applicable regulations. We were unable to substantiate the allegations.

We performed on-site work from January through May 2007 at the Authority’s office located at
1790 South 74th Street in Belleville, Illinois. Our audit period generally covered July 1, 2004,
through December 31, 2006. We expanded the period as needed to address a hotline complaint
reviewed during the survey phase of our review. We performed our review in accordance with
generally accepted government auditing standards.




*
 Because the Authority data used as our sample universe only contained owner subsidy payments, we did not
consider the utility reimbursement overpayments when conducting our statistical projection.


                                                       8
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Controls over the calculation of housing assistance payments.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following item is a significant weakness:

              •       The Authority had not implemented adequate policies, procedures, and
                      controls to ensure that its caseworkers properly performed essential duties
                      relating to the calculation of housing assistance.




                                                9
                                     APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE


                 Recommendation            Ineligible 1/       Funds to be put
                     number                                    To better use 2/
                         1A                  $26,010
                         1B                                         $3,113
                         1D                                        $78,982


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Authority implements our
     recommendations, it will ensure that tenants are reimbursed for personal funds they
     should not have expended as the Authority underpaid the amount of assistance they were
     entitled to receive under the Section 8 Housing Choice Voucher program. Additionally,
     it will cease to incur excessive housing assistance payments and, instead, will expend
     those funds in accordance with HUD requirements. Once the Authority improves its
     controls, this will be a recurring benefit. Our estimate only reflects the initial year of this
     benefit. These amounts do not include potential offsetting costs incurred to implement
     our recommendations.




                                               10
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION
Ref to OIG Evaluation   Auditee Comments




                         11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION
                        (CONTINUED)

Ref to OIG Evaluation     Auditee Comments




Comment 1




                            12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION
                        (CONTINUED)

Ref to OIG Evaluation     Auditee Comments




                            13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION
                        (CONTINUED)

Ref to OIG Evaluation     Auditee Comments




Comment 2




                            14
                         OIG Evaluation of Auditee Comments

Comment 1   We identified errors in more than half of the files reviewed. Almost 20 percent of
            the 52 files with calculation errors had over/under payments totaling more than
            $1,000. While the net of incorrect owner subsidy payments was only 2.4 percent
            of the total paid for the 89 sample files, our finding demonstrates the potential for
            large errors.

            Additionally, regardless of dollar amount, any underpayment of benefits can be
            significant to the low-income individuals and families served by the Housing
            Choice Voucher program.


Comment 2   The proposed corrective actions, in conjunction with the actions already taken,
            sufficiently address recommendation 1D. These actions should ensure that staff
            correctly calculate housing assistance payments.




                                             15
       Appendix C

                SCHEDULE OF HOUSING ASSISTANCE ERRORS
                                                              Net of incorrect subsidy
                          Type of error
                                                               payments to owners          Utility
 OIG
                                Adjusted                                               reimbursement
sample Payment     Utility
number standard allowance         gross        Payment      Overpayments Underpayments overpayments
                                 income      administration     (1A)         (1B)           (1A)
       selection calculation
                               calculation
  1                                x                               $276
  6                   x                                             $81
  9                   x                                             $42
  12                               x                                                ($188)
  13                               x                                                ($137)
  14                  x                                             $36
  15                               x                              $221
  16                  x            x                              $661
  17                  x            x                             $1,609
  18                               x                                                 ($42)
  19                               x                              $258
  23                               x                             $1,251
  24        x                                                     $187
  25                               x                             $1,125
  26                  x                                                              ($66)
  27                               x                               $212                          $408
  28                  x                                            $317
  30                               x                               $313
  31                  x                                                                  ($9)
  32                  x                                             $84
  34                               x                                                 ($21)
  37                               x                                                ($452)
  38                  x                                                              ($84)
  39                               x                                                 ($36)
  41                               x                                                 ($90)
  44                               x                             $1,083                           $84
  45                               x                                $48
  46        x                                                                       ($126)
  47                               x                             $2,136
  48                               x                                                              $120
  50                               x                               $288                         $1,018
  53                  x                                                           ($1,428)
  55        x                      x                             $1,280
  58                                              x                 $45




                                                      16
         Appendix C

                       SCHEDULE OF HOUSING ASSISTANCE ERRORS
                                                          (CONTINUED)

                                                                                   Net of incorrect subsidy
                                  Type of error
                                                                                    payments to owners Utility
 OIG
                                         Adjusted                                                  reimbursement
sample Payment     Utility
number standard allowance                  gross           Payment      Overpayments Underpayments overpayments
                                          income         administration     (1A)         (1B)           (1A)
       selection calculation
                                        calculation
  60                                           x                                          $640
  61                                           x                                          $272
  62                                           x                                          $690
  63                                           x                                          $832
  64                          x                                                                                                  $175
  65                          x                x                                          $219                                   $180
  67                                           x                                           $96
  70                          x                                                                               ($121)
  73                          x                                                          $110
  74           x                               x                                        $1,587                                    $52
  75                                           x                                         $192
  77                                           x                                        $5,846                                  $1,672
  80                                           x                                                                ($97)
  81                                           x                                           $12
  82                                           x                                           $36
  83                          x                                                           $180
  84                          x                                                            $36
  89                                           x                                                              ($216)
                   *
Totals         4             17               35                 5                    $22,301               ($3,113)            $3,709




         *
           While we identified payment standard selection errors in 29 of the 89 files reviewed, only four of these errors
         resulted in incorrect housing assistance calculations. In other cases, because the gross rent was less than both the
         payment standard improperly used and the correct payment standard, the housing assistance calculation was not
         impacted by the selection error.


                                                                     17
